No. 20-5404

IN THE

Supreme Court of the United States
____________

JERMAINE ISAAC ROSS,
Petitioner,
v.

UNITED STATES OF AMERICA,
Respondent.

____________

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Eleventh Circuit
____________

SUPPLEMENTAL BRIEF OF PETITIONER
____________

Alec F. Hall
Federal Defender
M. Allison Guagliardo, Counsel of Record
Assistant Federal Defender
Federal Defender’s Office
400 N. Tampa Street, Suite 2700
Tampa, FL 33602
Telephone: (813) 228-2715
Facsimile:
(813) 228-2562
E-mail: allison_guagliardo@fd.org

SUPPLEMENTAL BRIEF OF PETITONER
Petitioner Jermaine Ross respectfully requests that this Court hold his petition for a writ of
certiorari pending the Court’s decision in Wooden v. United States, No. 20-5279. Questions 1
and 2 of Mr. Ross’ petition seek review of the Eleventh Circuit’s decision that he has three
convictions for offenses “committed on occasions different from one another” as required by the
Armed Career Criminal Act (ACCA), 18 U.S.C. § 924(e)(1). See Pet. i, 3-4, 9-16. This Court
granted certiorari in Wooden after Mr. Ross filed his petition for a writ of certiorari. See Supreme
Court Rule 15.8; Wooden v. United States, 141 S. Ct. 1370 (Feb. 22, 2021).
Wooden is the first case in which this Court will interpret the ACCA’s different-occasions
provision. The petitioner in Wooden has contended that the appellate courts’ use of a simultaneity
test—where “simultaneously” committed offenses are counted as one for ACCA purposes, but
“successively” committed offenses are counted as different offenses—is atextual and creates
anomalies and absurdities. Br. for Pet. 29-44, Wooden v. United States, No. 20-5279 (May 3,
2021) (“Wooden Pet. Br.”). One such anomaly is that the timing of the offenses “is normally not
an element of the offense” in the prior proceeding and thus may go uncontested, but this detail
ends up having “momentous consequences for a later federal sentence” under the circuits’
simultaneity test. Id. at 37-38 (citing Mathis v. United States, 136 S. Ct. 2243, 2253 (2016);
Wharton’s Criminal Procedure § 511 (12th ed. 1975)).
This Court’s interpretation in Wooden could determine whether Mr. Ross is eligible for the
15-year mandatory-minimum penalty under the ACCA. Mr. Ross’ ACCA sentence is based on
drug offenses resolved in two court proceedings in the State of Florida. Pet. 5-7. Mr. Ross
argued before the district court and the Eleventh Circuit that the dates alleged in the charging
documents are not elements under Florida law and, as a result, his convictions in the state
proceedings may not have actually rested on the alleged dates. Id. The Eleventh Circuit rejected

that argument, maintaining that the court’s different-occasions determination may be based on
such non-elemental facts taken from the documents approved in Shepard v. United States, 544
U.S. 13 (2005), and that the temporal distinction in the dates established that the offenses were
committed on occasions different from one another. Id.; Pet. App. 4a-5a (citing inter alia United
States v. Longoria, 874 F.3d 1278 (11th Cir. 2017)).
Mr. Ross has focused on the Sixth Amendment question presented by the Eleventh
Circuit’s non-elemental decision (Pet. 9-16), but this Court’s statutory interpretation in Wooden
could also resolve Mr. Ross’ question and whether he is eligible for an ACCA sentence. See, e.g.,
Iancu v. Brunetti, 139 S. Ct. 2294, 2301 (2019) (“This Court, of course, may interpret ‘ambiguous
statutory language’ to ‘avoid serious constitutional doubts.’”) (citation omitted). Indeed, the
petitioner in Wooden has challenged the simultaneity test used by the appellate courts, including
the Eleventh Circuit, and has presented the non-elemental argument in support of his statutory
interpretation. Wooden Pet. Br. 35, 38, 44. Mr. Ross has maintained that he is ineligible for the
ACCA sentence because he has, at most, two prior convictions for ACCA purposes. Pet. 10, 16.
Mr. Ross therefore respectfully requests that his petition be held pending this Court’s decision in
Wooden.
Respectfully submitted,
Alec F. Hall
Federal Defender
/s/ M. Allison Guagliardo
M. Allison Guagliardo, Counsel of Record
Assistant Federal Defender
Federal Defender’s Office
400 N. Tampa Street, Suite 2700
Tampa, FL 33602
Telephone:
(813) 228-2715
Facsimile:
(813) 228-2562
E-mail: allison_guagliardo@fd.org

2

